Audit Report




OIG-12-033
SAFETY AND SOUNDNESS: Failed Bank Review of First National
Bank of Olathe, Olathe, Kansas
December 20, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 20, 2011


            OIG-12-033

            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of First National Bank of Olathe in
                                  Olathe, Kansas


            This memorandum presents the results of our review of the failure of First National
            Bank of Olathe (FNB Olathe). FNB Olathe opened in June 1887. At the time of
            failure, it operated one main office and five branches in Olathe, Kansas, and a loan
            production office in Scottsdale, Arizona. The bank was a subsidiary of First Olathe
            Bancshares, Inc., located in Mission Hills, Kansas. The Office of the Comptroller of
            the Currency (OCC) closed FNB Olathe and appointed the Federal Deposit Insurance
            Corporation (FDIC) as receiver on August 12, 2011. As of June 30, 2011, the
            bank had approximately $538.1 million in assets and $524.3 million in deposits. As
            of October 31, 2011, FDIC estimated the loss to the Deposit Insurance Fund to be
            $118.6 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of FNB Olathe that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver and (2) interviewed OCC examination personnel.

            We conducted this performance audit during September and October 2011 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
            based on our audit objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our audit objectives.
OIG-12-033
Page 2

Cause of First National Bank of Olathe’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) FNB Olathe had
experienced substantial dissipation of assets or earnings due to unsafe or unsound
practices, (2) the bank incurred or was likely to incur losses that would deplete all or
substantially all of its capital and there was no reasonable prospect for it to become
adequately capitalized without federal assistance, (3) the bank’s unsafe or unsound
practices or condition were likely to seriously prejudice the interests of the Deposit
Insurance Fund, and (4) the bank was critically undercapitalized.

The primary cause of FNB Olathe’s failure was its pursuit of an aggressive growth
strategy without implementing the strong risk management practices needed to
support that growth. This resulted in significant concentrations of questionably
underwritten and monitored commercial real estate loans both in its nearby market of
Kansas City, Kansas, and in the Phoenix, Arizona, market which FNB Olathe entered in
2003. Credit risk management weaknesses included insufficient financial analysis of
borrowers, errors in loan-to-value calculations, out-of-date collateral appraisals, and
inadequate action plans for dealing with problem loans. These factors, combined with
a weakening real estate market, led to increasing losses and a depletion of the bank’s
capital.

Conclusion
Based on our review of the causes of FNB Olathe’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no circumstances surrounding the bank’s failure that would necessitate an in-depth
review. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of FNB Olathe’s failure and that it had no concerns with our determination
that an in-depth review of the bank’s failure was not warranted. The response is
provided as Attachment 1. A list of the recipients of this memorandum is provided
as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle, Audit Manager, at (202) 927-6345.

Attachments
                                                                                               OIG-12-033

                                                                                   Attachment 1
                                                                            Management Response




                                                        MEMORANDUM
Comptroller of the Currency
Administrator of National Banks

Washington, DC 20219


To:        Jeffrey Dye, Director, Banking Audits

From:      John Walsh, Acting Comptroller of the Currency /s/

Date:      December 15, 2011

Subject:   Response to Failed Bank Review of First National Bank of Olathe in Olathe, Kansas


We have received and reviewed your draft report titled “Failed Bank Review of The First
National Bank of Olathe in Olathe, Kansas (FNB Olathe).” Because the loss to the Deposit
Insurance Fund is less than $200 million, as set forth by section 38(k) of the Federal Deposit
Insurance Act, you conducted a review of the failure of FNB Olathe that was limited to: (1)
ascertaining the grounds identified by the OCC for appointing the FDIC as receiver; and, (2)
determining whether any unusual circumstances exist that might warrant a more in-depth review
of the loss. In performing your review you: (1) examined documentation related to the
appointment of FDIC as receiver; and, (2) interviewed OCC examination personnel.

You conducted your audit during September and October 2011 in accordance with generally
accepted government auditing standards. Those standards require that you plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for your findings
and conclusions. You believe that the evidence obtained provides a reasonable basis for your
findings and conclusions.

You concluded that the primary cause of FNB Olathe’s failure was its pursuit of an aggressive
growth strategy without implementing the strong risk management practices needed to support
that growth. We agree.

You determined that there were no circumstances surrounding the bank’s failure that would
necessitate an in-depth review. We have no concerns with your determination.

Thank you for the opportunity to review and comment on your draft report. If you need
additional information, please contact Jennifer Kelly, Senior Deputy Comptroller for Midsize
and Community Bank Supervision, at 202-874-5020.
                                                   OIG-12-033

                                               Attachment 2
                                                 Distribution


Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
